CERTIFICATE OF SERVICE

I hereby certify that on April 21, 2021, I electronically filed the foregoing
letter requesting an extension of time to file a brief in opposition with the
Supreme Court of the United States using the CM/ECF system. I certify that
the following parties or their counsel of record are registered as ECF Filers and
that they will be served by the CM/ECF system. A hard copy has also been
mailed to the parties.

CHRISTOPHER C. TAUB, ASST. ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
STATE HOUSE STATION 6
AUGUSTA, ME 04333-0006
/s/ Scott J. Lynch, Esq.
Lynch & Van Dyke, P.A.
261 Ash Street - P.O. Box 116
Lewiston, Maine 04243-0116
Tel. 207-786-6641
slynch@HLRVD.com

